                         UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF THE INSPECTOR GENERAL




March 31, 2004

INSPECTION MEMORANDUM

To:               Phil Maestri
                  Director, Management Improvement Team
                  Office of Deputy Secretary

From:             Cathy H. Lewis
                  Assistant Inspector General
                  Evaluation, Inspection and Management Services

Subject:          Review of MIT Action Item Number 169 (ED/OIG I13E0003)

This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
We will be examining approximately 20 Action Plan items with two objectives in mind,
determining if: 1) the item was completed as described; and, 2) the item helps meet the
stated Blueprint objective. In this report, we examined item number 169 (completed on
9/16/02), concerning the publication of special hiring authorities.

Background:

The action required by item number 169 was to:
       Publicize special hiring authorities (e.g., outstanding scholars, PMIs,
       excepted service) and encourage managers to use these authorities.

The comments field on this item states, “Completed – 9/16/02.”

On September 16, 2002, OM posted a Recruitment Tools brochure on ConnectED that
“provides an overview of special appointing and compensation authorities that are
available.” For this review, we focused on the use by Principal Offices of two hiring
flexibilities—the Outstanding Scholar program and the President’s Management Intern
(PMI) program.


Objective 1: Was the item completed as described?



                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
OM created and issued a Recruitment Tools brochure containing information on special
hiring authorities, including, but not limited to, the Outstanding Scholar Program,
Presidential Management Interns (PMIs), student loan repayment and the excepted
service. The brochure offers an overview of the many flexibilities available to the
Department. It does not include information about the additional costs associated with
some of the programs. For example, there is a short description of what the PMI program
is. However, it does not mention the $4800 fee that has to be paid to the PMI Office at
the Office of Personnel Management within 30 days of the PMI appointment.

OM announced and published its Recruitment Tools brochure on ConnectED on
September 16, 2002. On that same date, OM emailed the Principal Offices, encouraging
them to distribute the brochure to all the managers, become familiar with the options and
use the flexibilities to “attract and retain highly qualified employees.”

OIG interviewed twelve Principal Offices to assess their familiarity with the special
hiring authorities. In general, there was a sense that the PMI program was well managed
and that the head of the program did a good job of disseminating information about the
program and upcoming fairs.

Objective 2: As completed, do the actions taken help the Department towards its
stated Blueprint Objective?

The intention of this Blueprint Action Item was to publicize and encourage the use of
special hiring authorities and, in that respect, help the Department to improve the
strategic management of its human capital. While the Department generally did a good
job of sharing information with Principal Offices about the special hiring authorities, it
could do a more effective job of facilitating and encouraging their use.

There has been no apparent increase in the use of either flexibility over the past year.
According to the Director of Human Resource Services, OM has “not seen any
appreciable increase in the use of these flexibilities…probably due to lack of funds.”
However, in our interviews only one Principal Office mentioned that lack of funds were a
problem.

Of the twelve Principal Offices interviewed about their use of the two above-mentioned
hiring flexibilities, only five had hired Outstanding Scholars (3) or PMIs (4) in the past
year. The reasons for the lack of use of these flexibilities varied widely. Some reasons
cited for not hiring under these flexibilities included: a focus on hiring senior level people
in positions vacated by retirement, a lack of hiring in general, a concentration on hiring
internal employees, the length of process and lack of encouragement by OM staff to use
the Outstanding Scholar flexibility, and the use of other recruiting processes (such as
Schedule A, Schedule B, consultants). Only one Principal Office felt encouraged to use
these flexibilities, especially PMI.




                                              2
Departmental Response

We provided the MIT with a draft report. OM initiated a survey to the Executive Officers and
some managers on January 29, 2004 to identify barriers to the use of special recruitment and
compensation tools. OM will report its findings to the EMT. A copy of MIT’s response is
attached.

OIG Response
We have accepted the above action, withdrawn our recommendation that OM survey Executive
Officers and consider this report closed.




                                           3
                                     February 13, 2004



To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (January 6, 2004)
           Review of MIT Action Item Number 169 (ED/OIG I13E0003)
           “Publicize special hiring authorities and encourage managers to use them”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

Consistent with the MIT documentation, the draft memo indicates that action taken
completed the action item.

The MIT recognizes that there has not been a formal assessment or evaluation of the
impact of the activities. Such rigorous assessment of the impact of human resource
activities was not built into the Blueprint. The OIG memo raises the question: why do
offices chose to use hiring authorities, such as the PMI and Outstanding Scholar
programs, to the extent they currently do?

Developments since the completion

The Office of Management developed a survey to help identify barriers to using special
hiring and compensation flexibilities. The memo was distributed January 29, 2004 to
executive officers and selected senior executives who OM identified as “key informants”
with specific experience with or insight into the use special hiring and compensation
tools. Responses were due to OM by February 6, 2004. OM will report its findings to
the EMT.

Response to recommendations

Recommendation: “OM should meet with or survey Executive Officers to identify impediments to

the use of these tools and, to the extent cost is a determined to be a deterrent, identify how the

Department can address this issue.” OM has already initiated such a survey.




                                              4
